<html>
<title> - Refugee Crisis in Europe and Turkey: Current Challenges and Responses</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





115th Congress                                Printed for the use of the
1st Session             Commission on Security and Cooperation in Europe
________________________________________________________________________


 
               Refugee Crisis in Europe and Turkey:
                  Current Challenges and Responses
       










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                          October 10, 2017
                          
                          Briefing of the
          Commission on Security and Cooperation in Europe
________________________________________________________________________
                          
                          Washington: 2017












            Commission on Security and Cooperation in Europe
                    234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5f4f5f597c515d5550125453494f59125b534a">[email&#160;protected]</a>
                           http://www.csce.gov
                             @HelsinkiComm





                      Legislative Branch Commissioners

              HOUSE                              SENATE
CHRISTOPHER H. SMITH, New Jersey         ROGER WICKER, Mississippi,
          Co-Chairman                      Chairman
ALCEE L. HASTINGS, Florida               BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama              JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                CORY GARDNER, Colorado
STEVE COHEN, Tennessee                   MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina           JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                 THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                    SHELDON WHITEHOUSE, Rhode Island
          
                     Executive Branch Commissioners

                         DEPARTMENT OF STATE
                        DEPARTMENT OF DEFENSE
                       DEPARTMENT OF COMMERCE
                       
                                 [III]





ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.









                 Refugee Crisis in Europe and Turkey:
                   Current Challenges and Responses

                               ___________
                               
                            October 10, 2017


                                                                                           Page
                              PARTICIPANTS

Nathaniel Hurd, Policy Advisor, Commission on Security and Cooperation in Europe ......       1
Matthew Reynolds, Regional Representative for the United States and the Caribbean, 
  United Nations High Commission for Refugees .........................................       3
Luca Dall'Oglio, Chief of Mission, International Organization for Migration (Washington, 
DC office) ............................................................................       6
Philip Hyldgaard, Executive Director, A21 Campaign (Via videoconference) ..............       8
Jill Marie Gerschutz-Bell, Senior Policy and Legislative Specialist, Catholic Relief 
  Services and on behalf of Caritas Europa ............................................      11






                               [IV]
                               
                               
                               











                          Refugee Crisis in Europe and Turkey:
                            Current Challenges and Responses
    
                                     ____________
                                     
                                   
                                   
                                   October 10, 2017


         Commission on Security and Cooperation in Europe
                      Washington, DC
                      
                      

    The briefing was held at 1:59 p.m. in Room 188, Russell Senate 
Office Building, Washington, DC, Nathaniel Hurd, Policy Advisor, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Nathaniel Hurd, Policy Advisor, Commission on 
Security and Cooperation in Europe; Matthew Reynolds, Regional 
Representative for the United States and the Caribbean, United Nations 
High Commission for Refugees; Luca Dall'Oglio, Chief of Mission, 
International Organization for Migration (Washington, DC office); 
Philip Hyldgaard, Executive Director, A21 Campaign (Via 
videoconference); and Jill Marie Gerschutz-Bell, Senior Policy and 
Legislative Specialist, Catholic Relief Services and on behalf of 
Caritas Europa.

    Mr. Hurd. Good afternoon. On behalf of the Chairman of the Helsinki 
Commission, Senator Roger Wicker, and the Co-Chairman, Congressman 
Chris Smith, welcome to this briefing on ``The Refugee Crisis in Europe 
and Turkey.'' My name is Nathaniel Hurd, and I'm a policy advisor at 
the Commission.
    The briefing is being broadcast live at Facebook.com/
HelsinkiCommission. And you can also participate on Twitter. The 
Commission's Twitter handle is @HelsinkiComm, with two M's.
    In 2015, refugees and migrants began arriving in Europe in 
especially large numbers, and it developed into the largest refugee 
crisis in Europe since World War II. From 2015 onwards, there have been 
more than 2 million Mediterranean Sea arrivals. Greece and Italy were 
initially the main entry points, with Greece receiving almost three 
times more refugees and migrants than its Italian neighbor. Now Italy 
is receiving about five times the number of refugees and migrants by 
sea than Greece. More than 11,000 people have died or gone missing on 
the Mediterranean route from 2015 to the present.
    As challenging as the crisis has been for European host countries, 
it is important to note that a refugee crisis is especially acute for 
refugees themselves. Moreover, when people cross an international 
border and become refugees, they flee to a neighboring country. 
Neighboring countries almost always host the most refugees. That has 
been the case for Turkey, a participating State of the Organization for 
Security and Cooperation in Europe, which has been hosting more total 
Syrian refugees than any other country.
    The Helsinki Commission held a hearing on the European dimension of 
the refugee crisis in September of 2015. Today's briefing is an 
opportunity to learn about the current challenges and responses. The 
Commission intends to hold a related briefing in December, focusing on 
the naval, coast guard, and merchant shipping responses to the perilous 
Mediterranean Sea voyage so many refugees and migrants continue to 
take.
    Before introducing the panel, a few words about the format of this 
briefing. Each panelist will make opening remarks, and I will then lead 
an initial discussion with them. When that concludes, you--the 
audience--will be able to ask questions and make comments. Depending on 
how much time remains, I will then ask additional questions.
    Now to our briefers. Matthew Reynolds, to my left, is the regional 
representative of the United States High Commission for Refugees to the 
United States and Caribbean. Before joining UNHCR in 2017, he served as 
the North American representative for the U.N. Relief and Works Agency. 
Previous positions include Assistant Secretary of State for Legislative 
Affairs at the U.S. State Department from 2003 through 2009. There he 
was the principal congressional advisor to Secretary of State 
Condoleezza Rice, and directed all State Department relations and 
operations with Congress. Before his service at the State Department, 
Mr. Reynolds spent 17 years in senior positions in the House of 
Representatives and the Senate, including as Staff Director of the 
House Rules Committee, and as a professional staffer on the Senate 
Foreign Relations Committee and on the House Foreign Affairs Committee. 
He received his Bachelor of Science in foreign service, and the Dean's 
Citation from the School of Foreign Service at Georgetown University. 
Mr. Reynolds is a senior congressional fellow at the Stennis Center for 
Public Service at Mississippi State University. Although Mr. Reynolds 
grew up in India and Lebanon, I will say as a native New Englander and 
descendant of many generations of Bostonians myself, maybe the most 
important fact about him is he is a native of Massachusetts.
    Welcome back to the Hill.
    Mr. Reynolds. Thank you.
    Mr. Hurd. Luca Dall'Oglio is the chief of mission of the 
International Organization for Migration [IOM] in Washington, D.C. He's 
been chief of mission of IOM at the Washington, D.C. office since 2012. 
Mr. Dall'Oglio was previously the IOM chief of mission in Haiti. From 
2003 to 2010, he was the IOM Permanent Observer to the United Nations 
in New York. He is a sociologist by training, and has specialized in 
crisis stabilization and post-crisis transition and recovery. His field 
assignments have included the Horn of Africa, Mozambique, Haiti, 
Guatemala, and Kosovo. Before joining IOM, Mr. Dall'Oglio worked for 
UNESCO's regional office for social sciences in Bangkok. Prior to 
international civil service, he taught and researched at the University 
of Rome, as well as national and international research organizations.
    Philip Hyldgaard, who you can see on the screen behind me, is the 
executive director of the A21 Campaign. He is a native of Denmark and 
is based in Copenhagen, from where he is joining us today by video. Mr. 
Hyldgaard oversees the daily operations of A21 in Australia, Bulgaria, 
Greece, the Netherlands, Norway, South Africa, Thailand, the UK, USA, 
and Denmark. In 2008, Mr. Hyldgaard and A21 opened the first crisis 
shelter for rescued victims of human trafficking to provide medical 
care, accommodation, trauma rehabilitation, life skills, vocational 
trainings, and legal representation services through short-term 
programs. This work expanded to include restoration programs across 
Bulgaria, Greece, Ukraine, and South Africa. The fruits of A21's work 
have included legal convictions, a national hotline, awareness 
campaigns, and key partnerships. In 2012, the State Department honored 
Mr. Hyldgaard as one of its TIP Report Heroes, an honor associated with 
its annual Trafficking in Persons Report, for his work in Greece. He 
holds an advanced diploma in leadership from Hillsong International 
Leadership College in Sydney, Australia, and served as a key leader for 
two years in Hillsong Ltd., which led him back to Europe to help launch 
A21 in Greece.
    Jill Marie Gerschutz-Bell is Senior Policy and Legislative 
Specialist for Catholic Relief Services. She represents this 
international humanitarian and development organization before the U.S. 
Congress on appropriations, migration and refugees, human trafficking, 
and more. CRS is part of Caritas International, a global confederation 
of over 160 member organizations worldwide, including throughout 
Europe. From 2009 to 2012, Ms. Gerschutz-Bell served as fellow at the 
Woodstock Theological College at Georgetown University, where she 
contributed to and co-edited ``And You Welcomed Me: Migration and 
Catholic Social Teaching.'' Prior to joining CRS, Ms. Gerschutz-Bell 
served as migration policy director for the Jesuit Conference USA for 
five years. Selected as a young leader in immigration by the German 
Marshall Fund, Ms. Gerschutz-Bell was a fellow in its Transatlantic 
Forum on Migration and Integration. She has also worked with Casa 
Alianza in San Jose, Costa Rica, and the International Federation of 
Red Cross-Red Crescent Societies in Geneva.
    Welcome, again, to all of you. We'll begin with Mr. Reynolds and 
then proceed down the line.
    Mr. Reynolds. Thank you for the kind introduction.
    As Nathaniel noted, I am relatively new with UNHCR, so don't quiz 
me too hard. I'm still absorbing a lot. And I also want to kind of 
apologize in advance because I have the feeling some of us may overlap 
on certain statistics or comments because we're all focused on the same 
area here. But at least for some of us, we're all one U.N. and 
partners, so we're all in it together.
    As you know, as introduced, I represent UNHCR, which is the U.N. 
refugee agency, and it's a global organization dedicated to saving 
lives, protecting rights, and building a better future for refugees, 
forcibly displaced communities, and stateless people. We work to ensure 
that everybody has the right to seek asylum and find safe refuge, 
having fled violence, persecution, war, or disaster at home. Since 
1950, we have faced multiple crises on multiple continents, and provide 
vital assistance to refugees, asylum-seekers, internally displaced and 
stateless people, many of whom have nobody left to turn to.
    By the end of 2016, there were 65.6 million individuals who were 
forcibly displaced worldwide as a result of persecution, conflict, 
violence, or human rights violations. That's an increase of 300,000 
people over the previous years, and the world's forcibly displaced 
population remains at record high.
    To start off, I'd first just like to thank you and thank the United 
States and the American people for its very strong, continued, 
extraordinary financial and political support to UNHCR. The United 
States is our largest supporter and our largest donor, and our work 
would be impossible without the support we receive from the U.S. So 
thank you. We're here in Congress. I know it's important. So thank you.
    UNHCR's mandate clearly outlines our role in assisting those 
forcibly displaced. Refugees are specifically defined and protected in 
international law. Refugees are people outside their country of origin 
because of feared persecution, conflict, violence, or other 
circumstances that have seriously disturbed public order and who, as a 
result, require international protection. Their situation is often so 
perilous and intolerable that they cross national borders to seek 
safety in nearby countries, and thus become internationally recognized 
as refugees with access to assistance from states, UNHCR, and relevant 
organizations.
    There are other categories, such as migrants. And we have Luca from 
IOM who is the expert on that.
    Looking towards Europe, in the first half of 2017, over 105,000 
refugees and migrants entered Europe via three Mediterranean routes, 
and over 2,400 are thought to have died or gone missing in the 
Mediterranean Sea. And this is just the first half of 2017. Arrival 
numbers are up 20 percent higher than 2016, but they have slowed 
significantly as of mid-July.
    Now, why is that? Various factors are likely to have contributed to 
this decrease in sea arrivals, including increased engagement by Libyan 
authorities, especially the coast guard, to prevent departures. Changes 
in power dynamics involving authorities, militias, and smugglers in 
Libya may also be a factor. But 95 percent of sea journeys have 
departed so far this year from Libya. The risk of dying is one in 39 
leaving Libya through the Mediterranean route.
    All routes, including land routes, are dangerous. There'll be 
numbers thrown around. I'll throw some numbers out at you here. About 
12,500-plus have arrived in the EU through the Eastern Mediterranean 
route, which is Greece, Bulgaria, Cyprus; 83,000-plus through the 
Central Mediterranean route to Italy; 9,000-plus through the Western 
Mediterranean route to Spain.
    These are sort of mixed flows, and you'll see we'll be talking 
about different types, or different kinds of folks making these 
perilous journeys. But it's interesting to note, of the flows arriving 
from Libya, 23 percent of those arriving in the EU from West Africa--
that's more of The Gambia, Cote d'Ivoire, Nigeria--qualifying for some 
sort of international protection, whereas 73 percent of those coming 
from the East Africa trend--which would be Somalia and Eritrea and so 
on--qualify for international protection. So you can see there are some 
differences in some mixtures. Today, the most common nationalities that 
we're seeing are Nigeria, Guinea, Cote d'Ivoire, Bangladesh, and still 
the Syrian Arab Republic.
    For those who are crossing to Europe via the Central 
Mediterranean--we believe that greater regional support for Italy is 
required, as well as increased efforts to address the root causes of 
movement via Libya, provide support for countries receiving and hosting 
refugees and transit countries, renew efforts to find solutions and 
protection for refugees before they reach Libya, and take steps to 
address smuggling and trafficking.
    In July, UNHCR launched an appeal to help provide meaningful 
alternatives to refugees and others undertaking dangerous journeys to 
Europe. These include scaling up existing activities or implementing 
new ones to provide effective ways and means to protect refugees and 
asylum seekers along the various routes leading to Libya. While 
European leaders discuss responses to the current situation, more 
concerted efforts are needed as part of a regional response.
    With so many lives at risk, UNHCR, like the others, stress the 
vital importance of rescue-at-sea operations undertaken by all actors 
involved. Further work is needed to remove obstacles to existing legal 
pathways, including family reunification. Greater numbers of legal 
pathways would offer a feasible alternative to irregular journeys for a 
larger number of people, something that currently makes more people 
reliant on smugglers and undermines anti-smuggling and anti-trafficking 
initiatives. While some progress has been reported, with some states 
taking steps to investigate allegations of human rights abuses at 
borders, further measures are required to address the continued reports 
of such practices in some countries in the region.
    For those already in Europe, more needs to be done to strengthen 
access to asylum procedures and effective protection. This will prevent 
refugees from undertaking dangerous onward journeys. In addition, 
further steps are needed to strengthen identification and assistance 
for unaccompanied and separated children, including improving 
registration, age assessments, and guardianship systems; access to 
legal representation; as well as broader care arrangements. Within the 
European Union, it is also necessary to speed up and extend emergency 
relocation schemes, as well as ensure timely family reunions and 
implementation of the humanitarian and discretionary clauses within the 
Dublin regulation.
    Our meeting today is discussing not only Europe, but also Turkey. 
In Turkey, as you know, there are 3.1 million Syrian refugees and over 
330,000 refugees of other nationalities registered in Turkey. That's 
registered. The Turkish disaster and emergency management presidency is 
currently managing 23 camps in 10 provinces in southeastern Turkey, 
hosting over 230,000 Syrian and Iraqi refugees. The remainder, well 
over 90 percent, is spread throughout Turkey, mostly in large urban 
areas. Turkey remains the largest hosting refugee country worldwide for 
the third consecutive year. This is a heavy burden for Turkey, and its 
response is commendable.
    The great majority of refugees, as I mentioned, are living in urban 
areas throughout the country. Whereas the protection and legislative 
framework is appropriate, with some specific challenges, and access to 
basic rights for all persons of concern is theoretically in place, 
these high numbers have placed a strain on national capacities, 
especially with regard to registration, health and education. Access to 
livelihoods for all groups concerned remains a major challenge, 
particularly as the urban refugee populations become impoverished as 
the situation becomes protracted.
    Notwithstanding, Turkey remains committed to host the refugees 
present on its territory, and has confirmed its open-door policy. In 
reality, access is given to medical and most vulnerable cases, and the 
border with Syria, though, is strictly managed. I just want to 
underline the importance of maintaining opportunities for resettlement 
and other legal pathways for the most vulnerable among the refugee 
population, both Syrian and non-Syrian, from Turkey, because this is an 
important site of international solidarity and responsibility sharing 
with Turkey. It's important.
    I want to bring all this together in conclusion to go back to the 
global picture, because never before has there been such a universal 
convergence around the need to reshape how we engage in refugee crises, 
bringing tried and tested elements and new ones together in one 
framework. The traditional humanitarian response needs to adjust the 
Comprehensive Refugee Response framework, which was annexed to the New 
York Declaration, offers a new model for response. In concrete terms, 
this process will result in more predictable support to host countries 
and communities, more resettlement places, and other legal pathways to 
third countries, and greater engagement in solving conflicts and their 
root causes so that voluntary repatriation becomes a real and 
sustainable option.
    All elements must be worked on together with equal determination. 
Significantly, this is being planned while the Secretary-General's 
peace and security reforms are taking shape, embedding conflict 
prevention and mitigation and efforts to sustain its peace as the core 
task of the United Nations. This is, therefore, a unique juncture, an 
opportunity that must not be lost. Development action and financing are 
central to the new model to enhance policy dialogue and to expand 
service delivery and boost economic opportunities for refugees and host 
countries. Together, these can build resilience and self-reliance and 
pave the way toward solutions over the mid and longer term.
    Thank you.
    Mr. Hurd. Please.
    Mr. Dall'Oglio. Thank you. And thank you for your generous opening 
remarks and thank you for your comments, which very much echoed mine, 
although I would perhaps focus more on the so-called central 
Mediterranean route, because that is where migrants, more than 
refugees, are coming from.
    But first of all, let me thank the Helsinki Commission for the 
invitation and convening this very timely and important discussion. Now 
we call it the U.N. Migration Agency--since joining the U.N. system in 
September, we see ourselves part of the broader U.N. community. The 
U.N., as an agency, is engaged in the promotion of safe and orderly 
migration policy and practices, being very much an operational agency, 
and humanitarian response to displacement and forced migration.
    As I said in the briefing, nearly 140,000 migrants and refugees 
have entered Europe by sea this year--until two days ago, October 8th, 
when I looked at the latest statistics--with over 170,000, or 75 
percent, arriving in Italy, the rest being divided between Greece, 
Cyprus, and Spain. Compared to last year, we had a decrease of almost 
55 percent. But they've mostly focused on Greece. In spite of the 
intensification of search and rescue operations, the human toll remains 
unacceptably high. And over 2,700 migrants and refugees have died or 
gone missing along the Mediterranean shores, most of them along the 
central Mediterranean route.
    Only a few days ago, you might have seen in the news, that a 
Tunisian military vessel had hit a boat carrying some 70 migrants, 
allegedly all Tunisians. And many of them are still missing, while a 
few corpses have been recovered. New migration routes are also opening 
up. And the issue is extremely complex. The demographic and the social 
composition of the migrants and refugee flows are interesting, but also 
alarming. Their vulnerabilities are high, and the worst not only 
because of their source country, but also because of the process of 
migration.
    If I could have a very broad generalization, you could say that 
while the eastern Mediterranean flows are driven by war and conflict, 
the central Mediterranean route is primarily composed of West African 
nationals driven by a complex mix of issues including social, economic, 
environmental factors, compounded by demographic trends that we can 
expect to last for the coming decades, as opposed to the drivers of 
migration from the eastern Mediterranean route.
    Arrival by sea through the central migration route by country or 
region shows the following nationalities in decreasing order: Nigeria, 
16,000 this year; Guinea, 1,500; Bangladesh; Ivory Coast; Mali; 
Eritrea; Gambia; Senegal; Sudan; Morocco; and Ghana. The central 
migration route remains rife with vulnerabilities, either because of 
the composition of the flows or because of the--as I mentioned--the 
migratory process itself. As many as 75 percent of the children and 
those who traveled on the central Mediterranean route suffered at least 
one indicator of exploitation, violence, or abuse, according to a joint 
U.N.-UNICEF report, ``Harrowing Journeys,'' we just released a few 
weeks ago.
    In terms of policy and relations with the European Union, the 
complexity of irregular migration flows across the Mediterranean and 
through Northern Africa requires a comprehensive approach in the broad 
partnerships between countries or regions of transit and destination as 
well as civil society, diaspora, academia, private sector. Since 2015, 
IOM has been deeply engaged in various aspects related to the 
development of the European agenda on migration, either as a provider 
of policy recommendations or as an operational partner.
    It may sound obvious, but it's important to reaffirm that in this 
context the U.N. overarching view is that the goal of sound migration 
policy should not be a reduction of irregular migration or address 
security concerns, or combat transnational organized crime. Rather, 
successful policy must be based on ensuring all of the above in a 
manner that upholds the migrants' rights and increases their protection 
and well being.
    Here are a few considerations for related policy development. 
First, demographic trends indicate the Europe needs migrants, including 
legal pathways for migrations with specific protection needs and 
vulnerabilities, but also lower-skilled economic migrants. Saving lives 
and reducing dangerous journeys will require safer legal migration 
channels available to migrants seeking work, as they constitute the 
majority of the central Mediterranean route. The number of arrivals 
over the last few years is manageable for Europe.
    For Europe as a whole, acting in solidarity with frontline states, 
swift implementation of the EU relocation scheme and the realization of 
a balanced, common European asylum system are key in this regard. At 
the end of September, the U.N. had assisted 30,000 asylum seekers 
throughout the European Union emergency relocation scheme from Italy, 
and most of them from Greece. The scheme was set up two years ago to 
relocate 106,000 asylum seekers from two frontline states--Greece and 
Italy. It has been implemented at a snail pace scale.
    Efforts to address the crime of human trafficking and migrant 
smuggling are extremely necessary. And yet, they need to be carefully 
planned and executed to avoid unintended consequences that may increase 
the risk for migrants and profit for criminals. Irregular flows will 
not be stopped by action to combat smuggling and trafficking alone. 
Without legal avenues and better information delivery, the market for 
smuggler's services will continue.
    Fourth, we also need to stress the relevance and importance of 
assisted voluntary return organized by U.N., reiterate that assisted 
voluntary returns and reintegration options are an important protection 
measure and a durable solution for vulnerable stranded migrants along 
the route, which also supports the integrity of the asylum system.
    Lastly, the U.N. welcomes the commitment to further increase 
resettlement as a measure to enhance legal pathways for those in need 
of international protection and the commission's proposal for a new 
resettlement scheme. However, if resettlement is to become a credible 
option and an alternative for those seeking to risk their lives at sea, 
the number needs to be far higher than currently planned.
    Just a couple of final comments concerning the situation along the 
central Mediterranean route, principally Libya and Italy. Until the 
situation in Libya improves, Italy's geographic location and the fact 
that its ports are those closest and safest for the search and rescue 
international operations. Now, this should not translate into being the 
sole responsibility for receiving, assisting, and accommodating people 
rescued at sea.
    While all states must respect international maritime law and rescue 
people in distress at sea, at the same time the reception of rescued 
migrants cannot be seen as an issue only for Italy, but a matter for 
Europe as a whole, in line with European principles and the 2015 
European agenda on migration, which more generally aims at 
strengthening solidarity and cooperation between member states.
    Libya remains the most urgent scenario where international action 
should occur. Saving lives is the highest priority and a legal 
obligation. It is imperative to help the Libyan Coast Guard to improve 
their capacity to save lives and respond in a more humane way to the 
needs of migrants they rescue. While we applaud efforts to improve 
capacity for rescue of lives at sea, we strongly caution that this must 
go hand-in-hand with measures to dramatically improve conditions for 
migrants in Libya. Rescued migrants brought back to Libya must 
therefore have their rights respected and needs attended with adequate 
provision of protection and assistance, health care, screening for 
vulnerabilities, legal options, and other information.
    Furthermore, the conditions in detention centers are unacceptable. 
There must be alternative to detentions. And as I was mentioning 
before, access to voluntary humanitarian return, as well as 
resettlement. Last but not least, it's important to prioritize 
stabilization efforts in the south of Libya, which can also provide 
income-generating activities for those local communities as an 
alternative to being involved in smuggling and trafficking.
    Thank you.
    Mr. Hurd. Thank you.
    Mr. Hyldgaard.
    Mr. Hyldgaard. I would have preferred to be next to you all. But we 
have got to thank technology for this opportunity. Thank you so much to 
the Helsinki Commission and Chairman Wicker and Co-Chairman Smith, and 
Nathaniel Hurd for this opportunity to be part of this briefing. It's 
an absolute honor to share this podium, at least virtually, with such 
distinguished fellow panelists.
    And in an effort to not be repetitive, I'm going to attempt to give 
more of a first-hand encounter from on the ground in Greece, and share 
some of the stories that we have encountered as a grassroots 
organization here. As mentioned, my name is Philip Hyldgaard, and I'm 
the executive director of A21. A21 launched in 2008 as a group 
organization fighting human trafficking. And today, we're an 
international NGO based in 12 locations across 11 countries around the 
world. Focusing solely upon anti-trafficking efforts, A21 has a three-
pronged approach to addressing the crime of human trafficking, which is 
identified as our three Rs--reach, rescue, and restore.
    And just briefly, our main strategy is focused on the vulnerable, 
and provides a targeted prevention in both demand and raise massive 
awareness. Our rescue strategy targets the lead justice system by 
equipping frontline professionals and law enforcement with training and 
resources to see who's identified and assist in prosecutions--and 
centers in Pattaya, Thailand, and our three national hotlines in 
Bulgaria, Greece and South Africa.
    And finally, our core strategy, assisting survivors to live 
independently. A21 is passionate to see survivors of human trafficking 
helped and restored. Every day we're providing community-based care to 
survivors in six countries, with individually tailored programs to 
ultimately see survivors live an independent life.
    I had the pleasure to launch our first operational office in 
Thessaloniki in northern Greece in 2008, and managed the office there 
for eight years. In mid-2015, when Greece was confronted with this 
refugee crisis, we at A21 found ourselves right at the center of it. At 
the same time, little did we know that close to a million refugees 
would arrive that year alone, and right at our office there, comprising 
85 percent of all refugees reaching Europe that year. This extreme flow 
has continued into 2016 and now into 2017. Greece, already crippled by 
a lengthy economic recession, was at the breaking point around this 
time.
    I'm going to kind of switch gears, get on my screen and show you 
some pictures. I'll never forget the day in August 2015 when I first 
arrived at the unofficial border crossing in Idomeni in northern 
Greece. 15,000 refugees sitting on a dirt field with no water, no 
electricity, no shelter, no security, food, or medical supplies. It was 
just complete chaos, as the Greek police could do very little to stop 
all these refugees from crossing through the Former Yugoslavian 
Republic of Macedonia, as another 9,000 to 50,000 refugees would arrive 
every single day.
    I met thousands of Syrians who had the most horrific stories to 
tell of losing everything, surviving the escape from ISIS, then 
surviving the journey through Turkey, and finally surviving the deadly 
crossing in a rubber boat to Greece. I met a gentleman who told me how 
he had lost eight of his factories back in Syria. I met a volleyball 
player who was on the national team of Syria. I met a math professor 
from University of Homs. I met a father who had been forced by 
smugglers to cross the border in the middle of the night with his five 
little children. The boat sank, and he simply did not have enough arms 
to rescue all of his children. I met a single mom with her two 
children, as seen here in this picture, with her son, with a broken arm 
and a broken leg, both in a cast.
    All these people, rich and poor, all refugees from the same war and 
conflict. We just knew we had to do something. So that same day we met 
with the local mayor, and started working with the people who were 
starting to come on site there, including UNHCR and IOM, the person 
here in this briefing today. Three days later we installed 500 metric 
tons of gravel to set the foundation for this camp that later became 
famous on the news for being one of the busiest crossings in the whole 
crisis. We also dug a two-mile water line, and designed, built, and 
installed our first of 15 water containers, all within a matter of 10 
days after coming on site. For the first time, these large open 
containers feature 20 sinks with clean water, solar-powered lighting, 
which was the first light on site. For the first time, there was a just 
a little spear of hope on that site, as people could find a safe place 
with light.
    We are not a humanitarian organization. We are fully focused on 
human trafficking. But we recognized that these were extremely 
vulnerable people to human trafficking. We knew that human traffickers 
are always looking for vulnerable people who won't be noticed if they 
go missing, and that no one would look for. Over the past two years, we 
have provided 14.8 million portions of drinking water and over 700,000 
warm showers to refugees in Greece. But in these water stations, we've 
placed prevention materials on the wall--on the mirrors and on the 
walls and inside shower cabins, warning refugees of human trafficking 
and advertising a hotline number in multiple languages.
    Close to 200,000 refugees have been reached with this vital 
prevention information. This information has already saved dozens of 
lives, as we saw after a single call to our hotline in Greece, where a 
refugee called in distress that he and others were held prisoners in a 
barn and were being extorted for money at gunpoint. We were able to 
extract the GPS coordinates from the call and pass it to law 
enforcement, who engaged Interpol, who quickly conducted a raid on the 
barn and rescued 77 refugees out of this place.
    Unfortunately, not so many have been this lucky. Our staff has 
viewed several human corpses found with surgical cuts right down their 
chest, with their organs removed, including their eyes, only to be 
dumped in a bush near the border. Europol estimates that up to 10,000 
children have gone missing in Europe with the refugee crisis alone. We 
simply do not know where they are or what happened to them.
    A21 designed a comic book for children that had drawings warning 
about trafficking and encourages children to stay together as a family. 
And though we've distributed over seven and a half thousand of these 
comic booklets to children, refugee children, we cannot reach them all. 
A21 has trained over 1,200 frontline professionals and law enforcement 
officers working at camps in Greece on how to identify victims of human 
trafficking. And we've seen 102 victims become identified and assisted 
through these efforts alone.
    The political challenges around this crisis are, of course, 
immense. And though the EU-Turkey agreement has slowed the flow of 
refugees into Greece, the refugee stream continues in both Greece and 
now more so in Italy, as we've already heard, a crossing that's even 
more dangerous than that of Turkey because of the distance in the 
water. I have stood, myself, on the shores of the Greek island of Tilos 
and witnessed with my own eyes as a boat of 50 refugees arrived from 
Turkey onto the shore in a rubber boat, which was vastly overloaded, 
over capacity, and only stayed afloat by its occupants constantly 
scooping seawater out of it. Each person arriving had paid $2,500 U.S. 
to get a seat on the vessel to smugglers. And the whole deal had 
happened under great stress and often at gunpoint.
    Three and a half to 5,000 refugees have lost their lives or gone 
missing every year crossing these waters. That's over 15,000 people 
since January 2014. And as I'm standing there, helping refugees ashore 
in Tilos, I look out and see the Izmir-Tilos ferry cross on the exact 
same route with plenty of space, safety, and a ferry ticket price of 
just $26 U.S.
    The Syrian refugee crisis is known as the largest humanitarian 
crisis since the Second World War. And the need for support, medical 
care, food and shelter are still significant. But there is a byproduct 
of this, and of any humanitarian crisis. And that is vulnerable people, 
people who are easy targets for traffickers, who are looking for the 
next prey, whether they sell organs, forced labor, sex trafficking, or 
other forms of exploitation.
    Just last week, a woman from Congo who had been traveling through 
what she called the Libyan route, through Turkey and into Greece, in a 
prevention session with our staff that we facilitate, said, and I 
quote, ``Every woman that has passed through Turkey has been a sex 
slave there,'' while the other women around her were nodding their 
heads in agreement, and some were too ashamed to even make eye contact 
with us. We must not neglect this side of this crisis, and continue to 
provide protection and safety for refugees, targeted prevention 
materials, training for frontline professionals to identify victims, 
and care for those who were exploited along the way.
    Thank you for your time and effort to raise awareness and take 
action around this really important issue. Thank you very much.
    Mr. Hurd. Thank you.
    Ms. Gerschutz-Bell.
    Ms. Gerschutz-Bell. Thank you very much, Nathaniel, and to the 
entire Commission, for hosting this hearing; and, Phil, for those 
stories, really putting a face on all of the numbers that Mr. 
Dall'Oglio and Mr. Reynolds laid out for us. I think you've all 
provided an excellent overview, and so what I'd like to share with you 
today is the response of Catholic Relief Services in partnership with 
our Caritas partners along the frontline states in Southern Europe.
    As Nathaniel pointed out, Catholic Relief Services is a member of 
Caritas International, which is 160-some members strong throughout the 
globe. CRS last year served about 120 million people in 112 countries.
    We particularly appreciate this opportunity because two weeks ago 
Pope Francis launched a two-year campaign called Share the Journey, in 
which we hope to promote a culture of encounter with migrants, 
refugees, and asylum seekers. You have probably heard Pope Francis 
poignantly point out that our world faces a crisis of solidarity. So it 
is our hope that a culture of solidarity engendered by this campaign 
will, in turn, engender greater political will to protect migrants, 
refugees, and asylum seekers, and enable them a path toward self 
sufficiency.
    CRS and our Caritas partners are privileged to encounter and 
understand the struggles of migrants and refugees in our work. Their 
physical challenges have been widely reported, but we also hear of some 
of their psychological scars. Twenty-six-year-old Miray went to Europe 
from Turkey also in a boat. When she was explaining why she fled Syria, 
one of the things she said to us was, ``you reach the point of `do I 
have feelings anymore?' ''
    So CRS has worked with our local Caritas partners, as I mentioned 
earlier, in Southeastern Europe. In the fall of 2015, when we started 
to see the significant increase of asylum seekers, migrants, refugees, 
the mixed flow into Europe, we worked with these local agencies to help 
them scale up quickly. Due in large part to the church's unparalleled 
network, Caritas agencies were able to adapt to the routes of asylum 
seekers as they shifted in the region. We continue this work today.
    I will focus on those partners in that region. Of course, there is 
the work of Caritas partners in Luxembourg, the United Kingdom, and 
Germany who have done their own work, of course Germany largely 
receiving and resettling refugees there.
    CRS and our partners have assisted more than 400,000 refugees and 
migrants across Greece, Serbia, Macedonia, Croatia, and Bulgaria, and 
provided assistance to other vulnerable groups in these countries as 
well. So that is both short-term humanitarian needs, as well as longer-
term assistance to help refugees rebuild their lives. We also are 
working with local governments to help build their capacity and other 
NGOs' capacity.
    Now, before I go into some of the details of that work, I just want 
to put it into context of the work that A21 or that Phil just outlined. 
When we talk about the risk of so many of these migrants and refugees 
of falling prey to traffickers, we think of a lot of the humanitarian 
work and development work as protecting these vulnerable populations. 
If they are in school, if they have work and livelihoods, they are much 
less likely to fall prey to victims of trafficking.
    To that end, I should just note that we deeply appreciate 
Representative Smith's Trafficking Victim Protection Reauthorization 
Act this year, in part because it really focuses on prevention of 
trafficking.
    When it comes to food and emergency living supplies, our network 
has prioritized the use of vouchers and pre-paid debit cards to allow 
people to buy items in local markets. As many of you know, cash allows 
families to prioritize their own needs, and it offers a sense of 
control and respects their dignity.
    Caritas Serbia, just to give one example of humanitarian 
assistance, is present in eight major government facilities, providing 
food, hygiene items, clothes, laundry services, psycho-social support, 
and animation activities. Caritas is currently providing breakfast and 
soup to 60 percent of all refugees coming through the country and 30 
percent of migrants. They have particularly focused on unaccompanied 
and separated children, which we've heard there needs to be more 
protection of.
    When it comes to information integration, protection, and 
reconciliation, CRS has supported language classes, financial courses, 
job placement, and other support for refugee integration into local 
communities. Caseworkers help new arrivals to register their children 
in school, seek medical help, and access other services.
    I should point out, Nathaniel asked me to compare a response in the 
developed world to a response in the developing world, and this is one 
area where the contrast is quite stark. In a place like Europe, we can 
help newcomers to access existing government services. In a more 
developing context, we would be standing up these services--the health 
care, education services, et cetera. Even if there are gaps in the 
government services, very often in the developed world they can stand 
up and fill that gap relatively quickly, the government can.
    CRS and Caritas also provide information, translation, and legal 
resources to refugees. At least 10,000 people have availed themselves 
of these services, including gender-based violence and trafficking 
prevention, and counseling for children and their parents.
    Shelter is an area where CRS has a particular sort of signature 
response when it comes to humanitarian assistance. So across the region 
we provide vulnerable people with safe, quality, and affordable 
housing.
    In Greece, for example, we have worked with Caritas to provide 
transitional shelters for asylum seekers. We're using a model that was 
very successful in northern Iraq, where we identify vacated apartment 
buildings and then we negotiate with the landlords, so they allow us to 
use the space and we provide necessary repairs so that asylum seekers 
and others can live there.
    In Bulgaria, Caritas Sofia runs a housing program for refugees 
who've moved out of camps.
    In Serbia, we've renovated 13 barracks and one reception center for 
asylum seekers. So we estimate that about a thousand asylum seekers are 
living in these facilities at any given time.
    I want to move now to some policy concerns of Caritas Europe. 
Caritas Europe is the sort of European umbrella of Caritas 
International. And all of these comments are theirs, because we abide 
by the principle of subsidiarity, which means they speak for 
themselves. We do not speak for them. These are all regarding 
international protection within Europe.
    First, as has already been discussed, there is a need for greater 
responsibility sharing within Europe. It's very clear that because of 
the lack of responsibility sharing among European governments, we have 
seen this crisis. It's not a crisis of numbers. This is how Beth Ferris 
of Georgetown has put it. She says it's a crisis of our system; it 
would be manageable if we had a better system. And, by the way, it 
would protect people further, as Phil pointed out.
    As you know, an estimated 80 percent of the world's refugees are 
hosted by developing countries. And when the flight began into Europe 
in larger numbers, it represented a mere 0.2 percent of the European 
population. And yet, most countries--with the noble exception of 
Germany--reacted with a stance of deterrence and containment. Caritas 
member organizations do suggest that greater responsibility sharing 
would help to address this concern. And one data point which 
illustrates this is that only 28,000 people have been relocated from 
Greece and Italy out of the 160,000 quota that was agreed to by member 
states in 2015.
    So Caritas, not surprisingly, is of the opinion that the Dublin 
system is broken, and more solidarity is needed among member states to 
welcome those in need of protection. As Caritas Europe's Secretary-
General has said, we cannot leave refugees waiting for relocation in 
Greece and Italy. They are very vulnerable and risk becoming prey for 
human traffickers.
    The very related point is that refugees, asylum seekers, migrants, 
need safer avenues to come into Europe. These tragedies in the 
Mediterranean have made this point in a very sobering way. Any of us 
who have kids, I think, when we saw the face and the lifeless body of 
the young boy who was all over the papers, I think we could always see 
our own children or grandchildren in his face.
    We do recommend--and I'll get to this with the recommendations 
later--increased and better safe pathways for entry into Europe.
    I want to drill down a little bit more into hot spots and the Safe 
Countries of Origin list. Caritas has stressed the need to abide by 
human rights and international law, particularly the right to asylum. 
The 2015 European Agenda on Migration established what they call a hot-
spot approach, which aimed to ensure better collaboration between 
national authorities and European agencies to identify, register and 
fingerprint incoming migrants. This was to facilitate relocation, and 
the idea was that it would ensure a fair distribution of refugees among 
member states.
    But Caritas is concerned by the implementation of this hot-spot 
approach, because it has observed cases of illegal practices of 
discrimination where people coming from sub-Saharan countries are 
directly issued with a return decree upon their arrival without having 
even the opportunity to submit a claim for asylum. In other cases, 
people are detained for months while their cases are being processed.
    The hot-spot system is a sort of no-land policy where people are 
classified on a national basis against international and European law. 
Caritas Europa believes that discrimination on the grounds of 
nationality gravely endangers the individual right to asylum and is 
concerned about the lack of access to asylum procedures. This is very--
similar to the concern about the Safe Countries of Origin policy.
    EU countries have developed national Safe Country of Origin lists, 
which presume, based on the general political situation in a country of 
origin, that a sufficient guarantee exists that neither political 
persecution nor inhumane or humiliating punishment is being carried 
out. But Caritas Europa members have observed that asylum seekers from 
countries of origin deemed safe receive less favorable procedural 
treatment than those from non-EU countries. If applicants from safe 
countries are unable to provide sufficient evidence to refute the 
presumption of safety in their cases, their claims can be judged as 
unfounded or manifestly unfounded. They consequently become subject to 
accelerated procedures or shortened periods for appeal.
    The concept of safe third country is effectively, therefore, being 
used to delineate en masse entire populations of people perceived as 
worthy of receiving asylum protection from those considered safe to 
return home.
    So we offer seven recommendations. First, Caritas urges the 
European Commission and European agencies to stop the hot-spot practice 
and to ensure that the right to individual examination of applications 
is guaranteed.
    Caritas urges European agencies working in hot spots to inform 
asylum seekers on procedures such as collecting private data and taking 
fingerprints.
    Caritas urges the Commission and EU member states to refrain from 
using the Safe Country of Origin concept, including through the 
adoption of national lists.
    Caritas urges EU member states to expand safe and legal pathways, 
including through resettlement, humanitarian visas, humanitarian 
corridors, family reunification or community sponsorship schemes.
    We at Caritas also encourage the EU to strengthen its 
responsibility-sharing agreements among member states. And in a related 
measure, we encourage all receiving governments, including the United 
States and the EU, to support a robust global compact on refugees that 
ensures responsibility sharing and protection of vulnerable migrants, 
refugees and asylum seekers.
    Sixth, CRS urges all donor governments, including the U.S. and 
European governments, to fully and robustly fund international 
humanitarian and development assistance to refugees and asylum seekers 
and the communities which host them. It should be noted that the U.S. 
Congress has responded in recent years to the increasing needs, and we 
urge them to continue that. We also urge Congress to work with the 
Trump administration to implement the reforms that were outlined at the 
World Humanitarian Summit last May of 2016.
    I'll leave it at that, Nathaniel, because I know we're short on 
time.
    Thank you.
    Mr. Hurd. Thank you.
    As I mentioned at the top, I'll lead a discussion in the beginning. 
I'll ask each of our speakers, in the order in which they spoke, two 
baskets of questions. And then we'll open it up to questions from the 
audience. I'll say now and remind you that if you could come to the 
microphone when it's time for audience questions, we would be very 
grateful. Otherwise Mr. Hyldgaard won't be able to hear you and we 
won't pick up the audio for our video.
    So starting with you, Mr. Reynolds, you mentioned the need to 
support Italy in particular. There has been that reverse numbers-wise 
from Greece as the initial main point of entry to Italy. What do we 
know about why that shift has taken place?
    And then, secondly, governments are making decisions about refugees 
and migrants in the broader context of very real security challenges. 
Groups like ISIS have stated very publicly that they intend to use 
large flows of people as cover for sending operatives to Europe. 
Obviously, safety and security is one of the primary functions of 
government. And so I'm wondering in particular, when UNHCR engages with 
governments, what are the primary security concerns that they raise 
specifically related to refugees? And in UNHCR's view, what do you 
think is the best way for them to address those issues while at the 
same time meeting and respecting their obligations related to refugees? 
So that's your basket.
    Mr. Dall'Oglio, you mentioned sea rescues and your recent reports. 
We are, as I indicated, going to be having a briefing here at the 
Commission in December focusing specifically on the response of navies, 
coast guards and the merchant shipping industry.
    What is IOM's assessment of the response from those different 
actors to date? Are there ways that you think that they can and should 
improve? How do you think governments like the United States, which has 
ongoing relationships, particularly with its counterpart navies and 
coast guards, can work with them to help strengthen their response?
    I want to ask a version of the question that I just asked Mr. 
Reynolds about security. You had sort of indicated that, in the view of 
IOM, the basis of sound migration policy should be sort of the rights 
and the welfare of the migrants and of the refugees. But again, at the 
same time, this is happening in the broader security context, debates 
and discussions within governments themselves, within their countries, 
and then also between governments.
    So, similarly, how would you recommend they best address the 
security concerns that you know they have and are going to address, 
while at the same time respecting the rights of and their obligations 
in particular of refugees?
    For you, Mr. Hyldgaard, the risk of trafficking obviously doesn't 
start when somebody arrives in Europe. It starts often in the country 
of origin. I'm wondering if you might be able to walk us through the 
different risks that refugees face, starting in the country of origin, 
to human trafficking. Then specifically, what can be done at sort of 
each point along the way, from country of origin to country of 
destination, to try and help prevent and mitigate some of those risks?
    There was something--I'm trying to remember if you said this in 
your oral remarks--certainly it was something that came up in our 
exchanges prior to this. You mentioned that Europol estimates that up 
to 10,000 children have gone missing in Europe through the refugee 
crisis alone. We simply do not know where they are. That's obviously a 
startling and striking statistic.
    Did most of these children arrive in Europe already unaccompanied, 
or did they arrive with an adult and were eventually separated from 
that adult? Who is doing what to find these children? And then what 
happens when a child is found, especially to reunite the child with the 
family?
    Then for Ms. Gerschutz-Bell, you mentioned two of the core 
principles of Catholic social doctrine, subsidiarity and solidarity. 
You mentioned the response of Caritas, but particularly with an eye 
towards subsidiarity, there has also been a response from individual 
dioceses, individual parishes, convents, monasteries, et cetera. I'm 
wondering if you could say a little bit about that as well.
    Then also, related to the issues that you raised regarding how 
individual countries, sort of on their own but also in relation to 
other countries, how they sort of manage refugee flows, how many people 
they accept in a given year, et cetera. I'm wondering in particular 
what you think the role of civil society should be in those debates and 
discussions. They're obviously happening at a governmental level. 
What's the role of civil society?
    One final note: If any of you would like to field a question that 
may not have been given to you directly but was posed to somebody else, 
please feel free to do that. So please.
    Mr. Reynolds. Great. Thank you.
    With regard to Italy versus Greece, sometimes there are lots of 
answers. I think part of the answer comes to the nature of the conflict 
in Syria, where you've had changes in that conflict. You had a very, 
very large flow of people, but various borders and ways to escape Syria 
have been closed where they weren't before; for example, the Lebanese 
border. And there's more restrictions and difficulty getting to the 
Turkish border. So you have a change in some of that nature.
    You also have perhaps been looking more as the Libya route as the 
easier access today for flows of people, where it's harder relative to 
the Turkish agreement, the Dublin agreement, and the Turkish--more 
individuals staying in Turkey and tightening of other borders. Libya is 
pretty conflict-open, so there's a lot of different areas that people 
are going through there. Remember, I pointed out that 73 percent of 
that eastern African flow are people still in search of protection. The 
flow that they're coming with, whether it's from South Sudan or from 
Somalia and so on, is coming up through Libya, where conditions are 
appalling, but they're there. That's the flow.
    Just because, in a way, the nature of the various migrants and 
refugees, though some of their origins and so on may have changed, 
there's still a significant amount of people in dire need of 
international protection. They're trying to find the safety, and that 
is Europe. When one is tightened up, the other becomes more of a flow.
    So that kind of segues maybe into national security. You know, 
UNHCR has always recognized, and I think we all recognize, that 
individual countries certainly have the right to protect their borders 
and need to protect their borders, and national security is very 
important. And there's a couple of steps that are involved.
    First of all, you have to look at the nature of who the refugees 
are. The vast majority are women and children. And that's not really a 
strong national security challenge if you're a six-year-old coming off 
of a rubber boat. We still recognize very much that there are national 
security concerns. That's where the national governments in Europe and 
others are going to be doing their screening and checking and so on.
    Another answer, though, partly is that you need to have a little 
bit of a multilayered approach to some of this as well. You look at the 
flow that's coming through Libya, which is 95 percent of the sea route 
today. One of the things that UNHCR and others, IOM, we're all looking 
at is trying to also address the origins and the flow of people.
    Once you get to Libya, you are already in a very, very dangerous 
and difficult situation. We'd like to try and see if we can't help the 
capacities of the original transit countries, resettlement and safe 
haven in places like Niger or Mali, where there can be some capacity.
    Just to use an analogy, we kind of have that situation almost 
leaving from Central America today, where people are finding, in the 
transit country of Mexico, safe haven and asylum. So the same kind of 
regional approaches can also work in Africa. But we also recognize 
security is a very important factor. But I think we should also look at 
again really who comprise the demographics of most of these--
particularly the refugees, which is what we're focused on. They are the 
most vulnerable of people. They're fleeing for a reason. They're not 
the combatants. It's an important issue, but that shouldn't be used as 
a red herring or as a facade to say we can't help, we can't do 
anything, we can't allow people access.
    Mr. Dall'Oglio. Thank you for your question.
    Mr. Hurd. Please.
    Mr. Dall'Oglio. Briefly, on the response and search-and-rescue 
operations, we've been critical of the reduction of the scope and the 
mandate of search-and-rescue operations carried out by EU member 
states. We've been advocating for Triton operations to have a larger 
scope, more resources, and increased outreach to areas outside the 
territorial waters.
    I think, to a certain extent, some of this criticism that has been 
voiced by civil-society organizations like IOM has been heard. Now we 
need to work with coast guards of the participating countries to ensure 
that the standards for search and rescue are well kept, that there are 
trained personnel onboard, that operation of interdiction and 
disembarkation takes into account vulnerability of migrants, how to 
distinguish among the possible migrants on board those most in need of 
protection. These are all areas where we are working on. We ourselves 
were recently engaged jointly with NATO in some of this training for 
staff onboard of these vessels, and particularly when operations 
include also the coast guards or the navy of northern African 
countries, which is particularly relevant.
    Now, here is also an area where, of course, countries such as the 
U.S. can have an important function in mentoring and providing 
technical assistance to countries of the southern Mediterranean shores 
to make sure that both technically and in terms of capacity is adequate 
to factor humanitarian concerns into their operations, I think, is a 
very important area of international and bilateral/multilateral 
cooperation for the U.S. also.
    Now, looking at the security concerns, I think in some ways I would 
also echo my friend from UNHCR. I mean, obviously, the issue is not to 
operate in a crisis mode but to operate in an orderly, safe, regular 
mode. And there are ways of turning away from the current state of 
affairs and promote legal pathways to migration, working directly in 
the countries of origin. This has been done in the past in Europe as 
well.
    Everybody might recall the migration from Albania when thousands of 
people boarded vessels to reach in that mode Italian shores. Eventually 
a number of programs from Tunisia and from Albania were set up where 
people would have access to quota or other systems of managed labor 
migration, which now can extend also to countries of West Africa. As 
already has been said, once people are already on their way through 
Niger and Libya, most of the damage has already been done. People will 
be, obviously, subjected to smuggling and trafficking links, and 
exposed to operations that, of course, are, by definition, irregular 
and dominated by criminal gangs, often with the support of local 
powers.
    So intervene at the source, trying to set up regular migration 
channels, trying to promote labor migration and other forms of 
migration, whether it's a student visa, family reunification or other 
aspects. Also work with the national authorities and border communities 
on immigration and border-management systems throughout the countries 
of the migration flows.
    Mr. Hurd. Mr. Hyldgaard?
    Mr. Hyldgaard. Yes. To your question about the risks that are 
involved that refugees are facing both in country of origin, on their 
way through are obviously multiplied and will also, lastly, reflect 
what route they take, what their country of origin is, because human 
traffickers are very clever in exploiting the unique vulnerabilities of 
individual ethnicities. It can be cultural views. It can be religious 
views. It can be, obviously, their financial situation. Poverty is 
obviously the biggest factor and vulnerability when it comes to human 
trafficking, as people are searching for a better life, a better 
opportunity, which leaves them very vulnerable to human trafficking of 
all kinds and make them prepared to take a certain amount of risks, as 
would be natural, to find a better life.
    I would say in the country of origin, some of the most significant 
risks are schemes of jobs or employment offers, or even studies in 
Europe that are being sold to them. It could be for example, they are 
in a poor situation. This could happen in the streets of African 
countries or even the Middle East. A smuggler will tell of a very 
lucrative opportunity to basically make it to Europe. In some countries 
that, for example, have a religious belief in, for example, voodoo, 
voodoo schemes and so on, will undergo oaths and what have you before 
they will go on their journey, which will turn on them later on to 
exploit them.
    But also, as refugees are traveling through these countries and 
transiting through, their risks can change. We have many examples of 
traffickers and recruiters working within refugee camps. We were even 
involved in a situation where a recruiter was dressed and posed as a 
doctor within the camps, offering help, and through that were 
recruiting and offering fake opportunities and ways into Europe.
    We have many examples of that, and especially in Greece now, where 
their northern border has been closed since early last year. You have a 
lot of refugees who were told and informed they had family members 
ahead of them showing how they could travel through Greece, and further 
into the Former Yugoslav Republic of Macedonia and into Western Europe, 
and suddenly overnight this border closed and now they're kind of stuck 
in Greece.
    And so, of course, there are official processes to move refugees 
and for them to find asylum. But, obviously, if you already have X 
amount of family members sitting in, let's say, Germany, they're quite 
eager to get out of these refugee camps and be reunified with family 
members. And this process can, of course, take a few months. And so if 
someone walks in with an offer of, ``I can bring you to Austria, I can 
bring you here, I can create documents for you for a very cheap 
price,'' then that is a very lucrative opportunity for someone, and 
again they are at the complete mercy of their smugglers, who can easily 
take advantage of them. Again, many, many stories, and unfortunately so 
many stories we never get to hear because they literally will end up in 
the situations.
    And then, finally, of course, upon arrival, as they're going 
through their asylum process, many, of course, aren't allowed to work 
or hold a job, and are trying to support family members who may be left 
behind. And again, they are very vulnerable to job offers. It could be 
in lumber or in the sex industry, and will have very little security or 
perhaps an inherent fear of authorities or police, and feel that they 
have no choice but to do exactly what these traffickers are saying.
    As to your other question of the number that I quoted in my 
statement from Europol, this was first reported about a year ago by The 
Guardian newspaper. It's actually a very low number if you look at some 
of the numbers that have come out recently. UNICEF in May reported that 
170,000 unaccompanied minors have filed for asylum in Europe alone. And 
so 10,000 would be a very low number, and would really reflect 
unaccompanied minors that simply are unaccounted for.
    What happens to them and what efforts are taking place is really 
hard to say. Specifically in a general term, that depends on what's 
happening in each country. But I would highlight Red Cross's efforts in 
family reunification. Red Cross will be present in many of these camps 
and places. Besides, there are other great organizations who will have 
international resources to connect unaccompanied minors with family if 
they succeed. But that's all dependent on families being alive and 
being able to report that they're missing their children, and through 
that can be connected if these children are found.
    It really highlights the extreme vulnerability that is there. The 
difference between a person going missing, let's say, from my own 
country, in Denmark, where every single news outlet will be talking 
about nothing else if one person goes missing, and here we have 
literally thousands of children that have gone missing and we never 
hear about it, we don't know their names, and there are no pictures on 
milk cartons or on websites about anyone looking for them. So this is a 
very serious situation.
    Mr. Hurd. Thank you.
    Ms. Gerschutz-Bell. Thanks, Nathaniel, for those questions.
    In the church, Pope Francis is sort of somewhat famous as saying 
pastors should smell like sheep, meaning that they should really be out 
amongst their flock as pastors sort of dealing with the everyday life 
that people are dealing who worship in the church. I think that's very 
applicable when we look at how he led the church's response to the 
flight of migrants, refugees and asylum seekers into Europe.
    He called on the bishops throughout Europe to have their diocese 
take up his call to express the gospel in concrete terms and take in a 
family of refugees. And he even took in two refugee families into the 
Vatican, which those of you who have been there know is very small, 
actually, in terms of physical space. He said it's not enough to have 
courage, you hang in there, but we actually have to do something about 
it.
    So to your question about, you know, the solidarity, based on that 
call, parishes, monasteries, diocese throughout Europe did respond. 
We've seen it here in the United States too. Just to give one example, 
aside from Europe, there is a diocese in--I think it's Nebraska; I've 
got to double-check--where the parishes are taking up regular 
collections and providing assistance to some of the refugee-hosting 
parishes in Lebanon, so directly sending support and assistance.
    I think that answer very much leads to my answer to your second 
question about the role of civil-society organizations as governments 
look to managing refugee flows. For those of us on the ground, like 
Catholic Relief Services, we do believe we have an obligation as 
encountering the most vulnerable to speak up when governments are 
failing to meet their obligations or what they have promised to do. 
Sometimes it's easier to be the people on the outside, right, because 
the government can get 90 percent of the way there. And we're going to 
say here's the 10 percent where you're failing. But we do believe that 
that's our job.
    Then faith-based organizations like Catholic Relief Services also 
think that an additional part of that work is to make the moral 
arguments, to help people see what does it mean to be a good society 
and to respond well and call those governments to live up to the better 
parts of who we are as human beings, particularly in places that are 
wealthier. The church has always maintained that wealthier countries do 
have an obligation to help those in need. This comes out in all kinds 
of policy ways.
    So while the church does acknowledge that governments have not only 
a right but a responsibility to protect their borders, ultimately it 
calls on governments to weigh their need to respond to people in need 
and the sort of ultimate moral law with national laws, which would 
argue for closing borders.
    Mr. Hurd. Thank you.
    I have many more questions, but I will leave them for another time.
    Well, again, I want to extend my thanks to the panelists, both 
those here physically present and those being beamed in all the way 
from Denmark late at night. Thank you for sticking with us.
    I particularly want to thank Commission Chairman Wicker and Co-
chairman Smith for their support for this briefing; and also my 
colleagues Stacy Hope, Jordan Warlick, and Mae Dewhurst for their help 
in pulling it together.
    Thanks again to all of you for being here today. Thank you. 
[Applause.]
    [Whereupon, at 3:18 p.m., the briefing ended.]
 
                              [all] 






 

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                               * * *
                               

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                               * * *
   
   
           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                               * * *


                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
